                           Office of the Inspector General
                   Corporation for National and Community Service




                           Pre-Audit Survey Report of the
                               Kentucky Commission
                      on Community Volunteerism and Service


                           OIG Audit Report Number 00-11
                                 October 28,1999




                                          Prepared by:
                                    Urbach Kahn & Werlin, PC
                                    1030 Fitteenth Street, N.W.
                                     Washington, D.C. 20005

                                Under CNS OIG MOU # 98-046-5003
                                   With the Department of Labor
                                      Contract # J-9-G-8-0024
                                      Task Order B9G9X102
                       -    -      -       -       -       -      -   -   -   -




This report was issued to Corporation management on June 20, 2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
December 18,2000, and complete its corrective actions by June 20,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                                                                            CORPORATION
                                 Office of Inspector General
                       Corporation for National and Community Service                       FOR NATIONAL

                                                                                             SERVICE
                                Pre-Audit Survey of the
               Kentucky Commission on Community Volunteerism and Service
                           OIG Audit Report Number 00-11

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordancewith the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps StateINational funds to state commissions. The state
commissions in turn, fund and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series of pre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we issue
a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged Urbach Kahn & Werlin, PC to perform the pre-audit survey of the Kentucky
Commission on Community Volunteerism and Service. Based on the procedures performed, UKW
concluded that the Commission had adequate controls for its training and technical assistance
eflorts. However, UKW concluded that the Commission lacks adequate controls for Jiscal
administration and subgrantee monitoring. Moreover, the firm was unable to determine whether
the Commission has an open and competitive grant award process because of inadequate
documentation. Their report, whichfollows, includes numerousflndings and recommendationsfor
improvements in these areas.

                                                                                          Inspector General
                                                                                          1201 New York Avenue, NW
                                                                                          Washington, L)C 20.525
In accordance with CNS OIG policies and procedures, the Kentucky Commission was provided
copies of the pre-audit survey findings and a draft of this report. The findings were discussed with
the Commission at an exit conference at the completion of field work, October 28,1999. As of June
15,2000, the Commission had not returned signed copies of the findings or responded to them, as
requested. The Commission also did not respond to the draft report within the thirty day comment
period. Instead, the Commission requested an extension of the response period. The request
(Appendix C) was denied because it is our policy not to grant extensions to the thirty day comment
period. No other timely response fiom the Commission was received.

As a result of the pre-audit survey findings, UKW recommends a full scope financial audit of funds
awarded to the Commission for 1995 through the current program year. UKW also recommends
that Corporation for National Service management follow up to determine the effectiveness of the
Kentucky Commission's corrective actions and that the Corporation consider the reported conditions
in its oversight and monitoring. We have reviewed the report and work papers supporting its
conclusions, and we agree with the findings and recommendations presented.

A draft of this report was also provided to Corporation for National Service Management. The
Corporation's response (Appendix D) indicates that the Corporation plans to request semi-annual
reports from the Kentucky Commission on it actions to correct the conditions reported and to follow-
up on the corrective actions when the Commission is reviewed during the Corporation's
administrative review process.
                                    Office of the Inspector General
                            Corporation for National and Community Service

                                       Pre-Audit Survey Report of the
                                     Kentucky Commission on Community
                                          Volunteerism and Service


                                                      Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................
                                                                                                                                          1

  Background ................................................................................................................................. 2

  Overview of the Kentucky Commission .................................................................................... 3

  Objectives, Scope and Methodology ..........................................................................................3

  Findings and Recommendations .............................................................................................. ..S


Appendices

  Appendix A - Kentucky Commission Funding - 1995 through 1999 .....................................14

  Appendix B - Detailed Engagement Objectives and Methodology .........................................19

  Appendix C - Kentucky Commission Response .......................................................................
                                                                                                                22

  Appendix D - Corporation Response ........................................................................................
                                                                                                                          23
UK Urbach Kahn & Werlin PC
    CERTIFIED PUBLIC ACCOUNTANTS




      Inspector General
      Corporation for National and Community Service

      At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Kentucky
      Commission on Community Volunteerism and Service. The primary purpose of this survey
      was to provide a preliminary assessment of

             the adequacy of the pre-award selection process;

             the fiscal procedures at the Commission;

             the effectiveness of monitoring Kentucky State subgrantees, including AmeriCorps
             Member activities and service hours; and

             the controls over the provision of training and technical assistance.

      We were also asked to report on the recommended scope of additional audit procedures to be
      performed at the Kentucky Commission.

      RESULTS IN BRIEF

      Based on the results of the limited procedures performed, we have made the following
      preliminary assessments regarding the Commission's systems for administering grants
      received from the Corporation.

         We were unable to determine if the Commission has an open and competitive process to
         select national service subgrantees, and whether the related systems and controls are
         functioning as designed, due to inadequate supporting documentation.

         The Commission does not have an adequate process in place for the fiscal administration
         of grants.

         The Commission does not have adequate controls in place to evaluate and monitor
         subgrantees.

         The Commission appears to have adequate controls in place to provide reasonable
         assurance that training and technical assistance are made available and provided to
         subgrantees.

      Based on our preliminary assessments, we recommend that the OIG perform a full-scope
      financial audit of the funds awarded to the Kentucky Commission for 1995 through the
      current program year. Procedures should also include verification of reported Member

                                                            - 1   -
                    1030 Fifteenth Street NW, Washington, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                    An Independent Member of Urbach Hacker Young Inrematianal
service hours and matching amounts by subgrantees.

In addition, we recommend that the Corporation follow up with the Commission to determine
that appropriate corrective actions are put in place to address the conditions reported herein,
including the Commission's failure to acknowledge the survey findings as reported on page
4, and that the Corporation consider these conditions in its oversight and monitoring of the
Kentucky Commission.

BA CKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State Commissions, nonprofit entities, and tribes and territories to assist in the
creation of full and part time national and community service programs. Through these
grantees, ArneriCorps Members perform service to meet the educational, human,
environmental, and public safety needs throughout the nation, especially addressing those
needs related to poverty. In return for this service, eligible Members may receive a living
allowance and post-service educational benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps
State/National funds to State Commissions. State Commissions are required to include
between 15 and 25 voting members. Each Commission has a responsibility to develop and
communicate a vision and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees'
compliance with grant requirements. The State Commissions are also responsible for
providing training and technical assistance to ArneriCorps State and National Direct
programs and to the broader network of service programs throughout the state. The
Commissions are prohibited from directly operating national service programs.

The Corporation's regulations describe standards for financial management systems that must
be maintained by State Commissions. The standards require, in part, that the State
Commissions maintain internal controls that provide for accurate, current, and complete
disclosure of the financial and programmatic results of financially assisted activities, as well
as effective control and accountability for all grant and subgrant cash, real and personal
property, and other assets.
0 VERVIEW OF THE KENTUCKY COMMISSON

The Kentucky Commission on Community Volunteerism and Service is headquartered in
Frankfort, Kentucky. The Commission has been providing national and community service
programs in its current form since 1995. The Commission reported that it received funding
from the Corporation totaling $1,913,177 in 1995; $2,994,879 in 1996; $2,425,838 in 1997;
$3,909,858 in 1998; and $3,694,086 in 1999. Additional information on the Commission's
funding is presented in Appendix A.

At the time of our visit, the Commission had four hll-time staff consisting of an Executive
Director, a Program Development and Training Officer, a Financial National Service
Manager, and an Administrative staff person. In addition, the Commission had a part-time
Special Events Coordinator. The Executive Director and the Financial National Service
Manager shared the monitoring responsibilities of subgrantee program and fiscal activities.
The Executive Director left the Commission on November 30, 1999 to accept another state
position. The Executive Director position remained vacant as of January 3 1,2000.

As part of the State of Kentucky, the Commission is included in the state's annual OMB
Circular A-133 audit. There have been no questioned costs or findings identified at the
Commission to date. However, it has not been considered or tested as a major program.

                                                                    Number of
                      Total Amount of                              Subgrantees
                        Corporation                                  Subject
        Program            Funds               Number of          To A-133 Audit
          Year          Subgranted            Subgrantees         Requirements




* The Commission could not provide this information. As reported on page 12 of this report,
the Commission does not have a process to support, document and track subgrantee audit
reports and findings.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service to provide a preliminary assessment of the systems and procedures in
place at the Commission for administering grants and for monitoring the fiscal activity of
subgrantees.
The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Kentucky State subgrantees, including AmeriCorps
       Member activities and service hours; and

       the controls over the provision of training and technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant
       agreements for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant funding for program years 1995
       through 1999; and

       performing the procedures detailed in Appendix B, in connection with the
       Commission's internal controls, selection of subgrantees, administration of grant
       funds, evaluation and monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in
place at the Commission using inquiry, observation, and examination of a sample of source
documents. Finally, we summarized our observations and developed the findings and
recommendations presented in this report. We discussed all findings with Commission
management during an exit conference on October 28, 1999. The Commission has not
returned signed copies of the findings, acknowledging or responding to their content, as
requested.

Our procedures were performed in accordance with Government Auditing Standards issued
b y the Comptroller General of the United States. We were not engaged to, and did not
perform an audit of any financial statements, and the procedures described above are not
sufficient to express an opinion on the controls at the Commission or its compliance with
laws, regulations, contracts and grants. Accordingly, we do not express an opinion on any
such financial statements or on the Commission's controls and compliance. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

We provided a draft of this report to the Kentucky Commission and the Corporation for
National and Community Service. The Commission wrote a June 5, 2000 letter, included as
Appendix C, to CNSIOIG requesting an extension of the comment period. The extension was
not granted and no other timely response to the draft report was submitted. The Corporation's
response to our findings and recommendation is included as Appendix D.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members,
Section 3.2, "Commissions are expected to develop a fair and impartial process for reviewing
and selecting applicants for potential funding." The Kentucky Commission has developed
various procedures to comply with this requirement.

The Kentucky Commission announces the availability of funds through news releases, direct
mailings and public grant information meetings. Interested applicants are requested to submit
a full proposal, including applications, budgets and objectives. A Peer Review panel of
volunteer members reviews and evaluates applications on how the program will achieve its
objectives, strengthen its community, develop its Members, monitor and evaluate the
program's continuing improvement, the programs organizational capacities and its cost-
effectiveness and sustainability. Once the Peer Review panel ranks each applicant, the
applications are forwarded to the full Commission for final decisions. These decisions are
then forwarded to the Corporation for fund award decisions.

However, based on the results of our testing, we do not believe the documentation maintained
to support these procedures is adequate. We have identified the following areas for
improvement.

             The Commission did not maintain dated conflict of interest forms
                           prior to the 1999prograrn year.

Section 3.6 of the Reference Manual for Commission Executive Directors and Members
states "Commissions should strive to achieve the greatest objectivity and impartiality
possible in the review and selection of grantees in the state." The section continues to state
"As defined by the Act, a Commission member or review panel member is considered to
have a conflict of interest if the member is currently, or was within one year of the
submission of a grant application to the Commission: an officer, a director, a trustee, a fill-
time volunteer or an employee of an organization submitting a grant application to the State
Commission."
Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the
member must recuse himselflherself from the Commission's administration of the grant
program, including such activities as any discussions or decisions by the Commission
regarding the provision of funds or education awards to any program or entity funded under
the same funding category. "

Reviewers sign conflict of interest statements for the applications mailed to them for their
review. Because the conflict of interest statement forms were not dated and maintained with
the grant review forms for the 1995 through 1998 program years, we were unable to
determine the program year and applications to which they related. However, during the 1999
program year, the conflict of interest statements were signed, dated and stapled to the grant
reviewer evaluations.

Because the Commission could not provide all signed and dated conflict of interest
statements, we were unable to determine whether conflict of interest statements were
properly completed by all Commission and peer review panel members during the grantee
selection process and whether the individual reviewer lacked a conflict of interest.

We recommend that the Commission enforce current procedures and require that signed and
dated conflict of interest forms are maintained for each grant applicant on file in accordance
with Corporation requirements.

               Some documentation supporting grant-making decisions was
                                    unavailable.

The Commission was unable to provide us with certain documentation to support the
selection process. Specifically, in a sample of ten subgrantees, we identified the following
deficiencies:

       Four instances where documentation supporting site visits was not maintained;

       Six instances where the Commission could not provide documentation to support the
       subgrantee application awards;

       Four instances where the Commission could not provide us with merit ranking forms;
       and

       Two instances where we were unable to verify individual award amounts to the award
       letters.

Because the Commission did not maintain adequate documentation, we were unable to
determine whether the Commission followed Corporation guidelines regarding the selection
of subgrantees. In addition, the lack of merit ranking forms precluded us from determining
the ranking of individual applicants to determine whether applicants were appropriately
funded.
We recommend that the Commission enforce its policies and procedures requiring the
retention of documentation supporting the award or rejection of subgrantee applicants.

             Lack of assessment of subgrantee applicants' Financial Systems
                              during the selection process

According to A Reference Manual for Commission Executive Directors and Members,
Section 4.2, Commissions are responsible for maintaining "appropriate financial management
systems to disburse funds and track Commission and program expenditures according to
legal and grant requirements." In order to comply with this requirement, the Commission
must be able to ensure that subgrantees have systems in place to accurately track
expenditures, as this information forms the basis of a majority of Commission expenditure
reporting.

During our testing, we determined that selection officials do not consider the adequacy of the
applicants' financial systems during the Commission's subgrantee selection process. The
grant application form provided by the Corporation does not specifically address the
applicant's financial systems. In addition, Commission selection procedures do not require
Commission personnel to request information from the applicants related to their financial
systems or to otherwise assess an applicant's financial system. As a result, grant funds may
be provided to an organization that does not have financial systems in place to properly
account for the Corporation funds received or to ensure compliance with related
requirements.

We recommend that the Commission evaluate and document the adequacy of the applicants'
financial systems during the selection process to ensure applicants have systems in place to
properly account for grant funds and comply with related grant requirements

              The Commission did not maintain documentation to support the
                    advertisement of the availability of grant funds.

A Reference Manual for Commission Executive Directors and Members, page 3-9 states,
"Just as the process for developing the Unified State Plan must be open and accessible to all
interested parties, so too must the process by which the Commission solicits funding
applications. The Commission is expected to widely publicize the availability of funds,
distribute a clear and easily understood application packet, and offer technical assistance to
potential applicants. The application instructions should reflect the themes and priorities of
the state and those established by the Corporation."

Commission procedures indicate that the availability of funds is announced through news
releases, direct mailings and public grant information meetings. However, no supporting
documentation exists that such announcements was made during the 1995 through 1998
program years.
This lack of documentation precluded us from determining whether the Kentucky
Commission announced the availability of funds in accordance with Corporation guidelines.

We recommend that the Commission revise its procedures to require the retention of
documentation to support the advertisement of the availability of grant funds.

Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether
subgrantees comply with legal, reporting, financial management and grant requirements and
ensure follow through on issues of non-compliance" (A Reference Manual for Commission
Executive Directors and Members, Section 4.3). Based on the results of our testing, we
identified the following areas for improvement related to the evaluation of subgrantee
compliance with reporting and grant requirements.

              Lack of evidence of Financial Status Report review, including
                                 matching recalculation

Commission procedures indicate that subgrantee Financial Status Reports are to be reviewed,
and matching requirements, recalculated. However, our testing identified the following
deficiencies:

       Two instances where previously reported amounts were not carried forward properly;

       Two instances where matching requirements were not met;

       Two instances where documentation supporting match requirements were inadequate;
       and

       Seven instances where the amounts reported on the spreadsheet used to compile
       subgrantee FSRs did not agree with the total amount reported by the Commission to
       the Corporation.

In addition, Commission personnel do not compare the FSRs to the subgrantees' accounting
records or other supporting documentation during site visits.

Because of these conditions, errors on the FSRs may exist and remain undetected. Although
all subgrantees are on a reimbursement only basis, if subgrantee FSRs are not agreed to the
subgrantees' accounting system, there is an increased risk that subgrantees are incorrectly
reporting amounts on their FSRs, and the Commission lacks reasonable assurance that
subgrantees are correctly reporting amounts on their FSRs.

We recommend the Commission develop standard procedures to review subgrantee FSRs,
recalculate matching requirements and formally document the results of the review. Also, the
Commission should implement site visit monitoring procedures that require the reconciliation
of the subgrantees' FSRs to the subgrantees' accounting records along with other supporting
documentation (eg. invoices).

                                Late Submission of FSRs

ArneriCorps Provision 17 (i) states "ArneriCorps State programs and most AmeriCorps
National sites that receive subgrants must submit at least four Financial Status Reports (SF
269 a) to their respective State Commission or Parent Organization." It continues to state
"State Commissions and Parent Organizations are required to forward Financial Status
Reports from programs and budgeted sites to the Corporation's Grants Office 30 days after
the close of each calendar quarter."

However, in our sample of thirty-two subgrantees, our testing identified the following
deficiencies:

       Eleven instances where the Commission submitted FSRs more than ten days late to
       the Corporation; and

       Fourteen instances where subgrantees did not submit FSRs timely to the Kentucky
       Commission.

As a result, the Commission and the subgrantees did not submit the FSRs in accordance with
Corporation guidelines.

We recommend that the Commission enforce current policies and procedures requiring the
submission of FSRs in accordance with Corporation guidelines.

                Inability to determine the timeliness of the receipt of FSRs

The Commission does not routinely date-stamp FSR reports from subgrantees as they are
received. Thus, the Commission can not determine if these documents are submitted timely
in compliance with the grant agreement.

As a result, subgrantee FSRs may not be submitted on a timely basis and the Commission has
no basis to verify the FSRs' receipt date.

During October 1999, the Commission began using the Web-Based Reporting system which
electronically records the date subgrantees submit their FSRs to the Commission. As a result,
no recommendation is required at this time related to recording the date of the receipt of
FSRs.
                   The Commission did not maintain all required FSRs.

AmeriCorps Provision #17 states "Commissions and Parent Organizations are required to
submit quarterly Financial Status Reports and three Progress Reports to the Corporation.
Commissions and Parent Organizations must submit these reports by the following dates and
include three copies along with the original." It continues to state "AmeriCorps State
programs and most AmeriCorps National sites that receive subgrants must submit at least
four Financial Status Reports to their respective Commission or Parent Organization. In
general, if a site has a Corporation-approved budget then the submission of an FSR for that
sitelsubgrantee is required. Cornrnissions/Parent Organizations are required to forward
Financial Status Reports from programs and budgeted sites to the Corporation's Grants
Office 30 days after the close of each calendar quarter. Annual Financial Reports shall be
submitted within 90 days of completion and will compare actual expenditures to budgeted
amounts using the line item categories in the grant budget form."

Learn and Serve provisions, issued during 1995, require that grantees submit timely Financial
Status Reports in accordance with Corporation guidelines four times a year. During 1998,
Learn and Serve provisions were revised to require that grantees submit Financial Status
Reports two times versus four times a year.

In our sample of eight subgrantees, we identified the following deficiencies:

       The Commission has not received FSRs from Learn and Serve subgrantees or
       submitted Learn and Serve FSRs to the Corporation since 1997;

       The Commission could not provide us with copies of the 1995 and 1996 FSRs
       submitted for its administrative grant;

       Two instances where the Commission could not provide us with subgrantee FSRs;
       and

       Five instances where the Commission could not provide us with the spreadsheet used
       to compile the FSRs which were submitted to the Corporation.

As a result, we were unable to determine the accuracy of FSRs submitted to the Kentucky
Commission by subgrantees, as well as the accuracy of FSRs submitted by the Commission
to the Corporation, due to various missing quarterly FSRs.

We recommend that the Commission maintain copies of, and support for, all FSRs it submits
to the Corporation as well as appropriate copies of subgrantee FSRs and supporting
documentation.
Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensuring
corrective action when noncompliance is found.

We identified the following areas for improvement related to the evaluation and monitoring
of subgrantees.

            The evaluating and monitoring system for subgrantees needs to be
                             improved at the Commission.

According to OMB Circular No. A-1 33, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D 9 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used
for authorized purposes in compliance with laws, regulations, and the provisions of contracts
or grant agreements and that performance goals are achieved." In addition, 9 400 (d)(4)
requires that pass through entities "ensure that subrecipients expending $300,000 or more in
Federal awards during the subrecipient's fiscal year have met the audit requirements of this
part for that fiscal year."

However, as noted in Appendix A, the Commission was unable to provide us with requested
information related to the Learn and Serve program, including the amount of funding
awarded to subgrantees during 1995, the number of subgrantees during 1995, the amount of
matching funds during 1995 and 1998, and the number of program operating sites for each
year under review.

In addition, we determined that documentation supporting the Commission's monitoring
procedures was not consistently maintained. The Commission was unable to provide us with
the following documentation:

           Progress Reports;
           FSRs;
           Site visit reports for visits performed during 1995 and 1996;
           Support for reimbursement requests;
           Member enrollment or exit forms; and
           Findings identified and corrective action taken by subgrantee.

It also appears that the Commission does not verify reported Member Service hours to
timesheets or other supporting documentation. Moreover, during our review of monitoring
files for subgrantees, we determined that certain information was excluded from the site visit
documentation. Specifically, the names of the Member files reviewed and identification of
Member files where exceptions were identified were not included.
In addition, comments included on the program review instrument developed by the
Corporation were general in nature and prevented others or us from re-performing procedures
completed by Kentucky Commission personnel. The lack of specific documentation prevents
us from determining the adequacy of the monitoring procedures performed by Kentucky
Commission personnel.

We recommend that the Commission revise its written policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample
sizes, exceptions, recommendations, and follow-up). This will allow the Corporation to
assess the Commission's oversight of subgrantees when it performs its planned Commission
administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise
its guidance to specify minimum procedures to be performed, as well as minimum
documentation requirements.

           Lack of documentation of review of OMB Circular A-133 Reports or
                         other audit reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 4 400 (d)(3) requires
that pass through entities "monitor the activities of subrecipients as necessary to ensure that
Federal awards are used for authorized purposes in compliance with laws, regulations, and
the provisions of contracts or grant agreements and that performance goals are achieved." In
addition, 4 400(d)(4) requires that pass through entities "ensure that subrecipients expending
$300,000 or more in Federal awards during the subrecipient's fiscal year have met the audit
requirements of this part for that fiscal year."

The Commission does not document its review of subgrantee OMB Circular A-133 audits or
other audit reports, as part of the monitoring process. In addition, the Commission does not
have a process to support, document, and track subgrantee audit reviews and findings. The
Executive Director acknowledged that review of audit reports and follow-up has not been a
standard practice.

In its failure to review and consider audit results, the Commission is unaware of information
helpful in canying out its oversight and monitoring responsibilities. Therefore, we
recommend that the Commission maintain a schedule of subgrantees subject to OMB A-133
audit requirements and ensure that the audits are performed. We also recommend the
Commission establish policies and procedures requiring the review of A-133 audit reports
and that such results are documented.
Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its
subgrantees. Procedures are in place at the Commission to (1) identify training needs of
subgrantees through periodic staff meetings with the program directors and a needs
assessment survey; (2) notify subgrantees of training programs; and (3) provide needed
training to subgrantees. We identified no significant areas for improvement within this
process.



This report is intended solely for the information and use of the Office of the Inspector
General, management of the Corporation for National and Community Service, the Kentucky
Commission on Community Volunteerism and Service, and the United States Congress and
is not intended to be and should not be used by anyone other than these specified parties.




Washington, DC
October 28, 1999
APPENDIX A           - KENTUCKY                COMMISSION FUNDING




                                                                .
                                                   CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE KENTUCKY STATE COMMISSION
                                                                   1995



                                      L AMERICORPS                    L&s
                                                                                                     A
                                                                                                     ADMINISTRATION
                                        COMPETITIVE                  FUNDS.              FUNDS,         FUNDS."
                 FUNDS                     FUNDS                    $160.000             $65,000        $248,035
                $757,131                  $683.011
                                                                                           NO
                 MATCH                      MATCH:                   MATCH:              MATCH          MATCH-
                                           $299,991                  $26,000            REQUIRED        $46,240




                                                                        +
                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                              $1,913,177




                                                                        t
                                                      FUNDS AWARDED TO SUBGRANTEES
                                                                $1,440,142




                                        AMERICORPS
                                         FORMULA.                 COMPETITIVE:
                                          $757,131                  $683,011

                                           MATCH                      MATCH               MATCH
                                              $'                        (5'                 $'

                                         TOTAL # OF                TOTAL # OF           TOTAL # OF
                                           SUBS
                                             4
                                                                     SUBS
                                                                         2                  ...
                                                                                          SUBS:


                                         TOTAL # OF                TOTAL # OF           TOTAL # OF
                                           SITES.
                                              *.*                       ^.
                                                                     SITES
                                                                                    I       ...
                                                                                          SITES:




   Total Carryovers for 1995 (Not ~ncludedin the current year funding amounts above).

   Administratton-     S     46,348



   ...*
   *       Per Commission, there was no match required
           Dlsab~lityfunds Included in grant award
          lnforrnatton not provided by the Commission
APPENDIX A - KENTUCKY COMMISSION FUNDING




   I




   PDAT'



   "
   ***
          FORMULA
           FUNDS.
          $986,098

           MATCH.
           $491,327




                      $
                      $
                           I

                                 Y




                               12,662
                                        .
                                        COMPETITIVE
                                          FUNDS.
                                         $1,522,746

                                           MATCH'




                                          AMERICORPS
                                           FORMULA'
                                            $986,098

                                             MATCH'
                                             $401,327

                                           TOTAL # OF
                                             SUBS:
                                               4

                                           TOTAL # OF
                                             SITES-
                                               38
                                                        CORPORATION FOR NATIONAL SERVICE
                                                     FUNDING TO THE KENTUCKY STATE COMMISSION




                                                                      I
                                                                        1996




                                                                          MATCH
                                                                          $42,000




                                                                      $2,994,879




                                                             FUNDS AWARDED TO SUBGRANTEES
                                                                       $2,648,844




                                                                      Id   COMPETITIVE'




                                                                              MATCH:
                                                                              $896,926

                                                                            TOTAL # OF
                                                                              SUBS
                                                                                4

                                                                            TOTAL # O F
                                                                              SITES
                                                                                64




   Total Carryovers for 1996 (Not Included In the current year funding amounts above).

   Administration:             50.000
                                        per Commission, 0 per Corporation Award Lener


          Per Commission, there was no match required
          Disability funds included in grant award
         Information not provided by the Commission
                                                                                             FUNDS
                                                                                             $90,000


                                                                                             MATCH
                                                                                            REQUIRED




                                                     TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION




                                                                                                  L a s:
                                                                                                 $140,000


                                                                                                   MATCH
                                                                                                   $42.000

                                                                                                TOTAL # OF
                                                                                                  SUBS.


                                                                                                TOTAL # OF
                                                                                                  SITES
                                                                                                             I   MATCH
                                                                                                                 $91,800
APPENDIX A            - KENTUCKY                COMMISSION FUNDING




                                                   CORPORATION FOR NATIONAL SERVICE
                                                FUNDING TO THE KENTUCKY STATE COMMISSION
                                                                   1997




           AMERICORPS
                      1                 AMERICORPS
                                                                        1
                                                                       L&S
                                                                                                   1
                                                                                                  PDAT       ADMINISTRATION
                                                                                                                FUNDS "
            FORMULA                     COMPETITIVE                   FUNDS                      FUNDS
              FUNDS-                      FUNDS:                     $160,000                    $68,749         $84,550
             $943,139                    $1,169,400
                                                                                                   NO
              MATCH-                       MATCH-                     MATCH                      MATCH          MATCH:
              $501,765                    $846,832                    $75,000                   REQUIRED        $145,000




                      I                       TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $2,425,838



                                                                         1
                                                       FUNDS AWARDED TO SUBGRANTEES
                                                                 $2,235,239




                                        A
                                        /
                                          AMERICORPS

                                          1FORMULA
                                            $943,139
                                                                 L
                                                                 AMERICORPS
                                                                  COMPETITIVE




                                        1 1
                                             MATCH.                   MATCH:                      MATCH
                                            $501,765                 $846,832                     $75,000

                                          TOTAL # OF                TOTAL # OF                  TOTAL # OF
                                            SUBS,                     SUBS:                       SUBS:
                                                                        3                           7

                                           TOTAL # OF               TOTAL # OF                  TOTAL # OF
                                             SITES-                   SITES-                      SITES:
                                              6:                        69                          ..*




   Total Carryovers for 1997 (Not included in the current year funding amounts above)'

   Adrninlstratlon.       $   119,704
   PDAT-                       30,590   Per Cornmisslon, $34,251 per Corporation Award Letter


   '^    Disability funds included In grant award
   fft
         Information not prowded by the Cornmlsslon
APPENDIX A                - KENTUCKY COMMISSION FUNDING



                                                    CORPORATION FOR NATIONAL SERVICE
                                                 FUNDING TO THE KENTUCKY STATE COMMISSION
                                                                   1998




               AMERIC~RPS
                FORMULA
                          .               AMERICORPS
                                          COMPETITIVE
                                                                                                             1
                                                                                                             ADMINISTRATION
                                                                                                                FUNDS "
                                                                          FUNDS.          FUNDS
                 FUNDS                      FUNDS:                       $145,000        $128,000               $207.583
                $1,036.735                 $2,392,540

                  MATCH                      MATCH-                      MATCH            MATCH:                 MATCH
                 $325,710                   $1,797,342                     $'*'          REQUIRED               $215,000
           L




                                                v                           v
                                              TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                               $3,909,858



                                                                                                    --




                                     I                  FUNDS AWARDED TO SUBGRANTEES
                                                                                                         1
                                      I    FORMULA.


                                             MATCH
                                                           I
                                                                  IAMERICORPS
                                                                   COMPETITIVE:
                                                                    $2,392,540

                                                                       MATCH
                                            $325,710                 $1,797,342

                                           TOTAL # OF               TOTAL # OF
                                             SUBS.                    SUBS:
                                               5                        5                     10

                                          TOTAL # OF                TOTAL # OF            TOTAL # OF
                                            SITES                     SITES-                SITES
                                              26                       123                    *.




   Total Carryovers for 1998 (Not included in the current year funding amounts above):

        Administration.   $   25,000
        PDAT              $   54,411 per commission, S 6,419 per award letter



   ...
   .*      Disability funds included in grant award
           Information not provided by the Commission

   Note: Per the Executive D~rector,the L & S Award has not gone final
APPENDIX A                    - KENTUCKY COMMISSION FUNDING




                                                           CORPORATION FOR NATIONAL SERVICE
                                                        FUNDING TO THE KENTUCKY STATE COMMISSION
                                                                           1999

I


            *
     AMERICORPS
                                      v
                               AMERICORPS
                                                                 '
                                                                 I
                                                               L8S
                                                                                   P



                                                                                            PDAT
                                                                                                                   '
                                                                                                                   I
                                                                                                          ADMINISTRATION
                                                                                                                                '
                                                                                                                                I
                                                                                                                             PROMISE
      FORMULA                  COMPETITIVE                    FUNDS                        FUNDS.            FUNDS.         FELLOWSHIP
       FUNDS                     FUNDS-                       $80,000                      $94,429           $221,315         FUNDS
       $989,261                 $2,296,081
                                                                                             NO                               $13,000
          MATCH                   MATCH                       MATCH.                       MATCH                 MATCH.
          $442.245               $1,579,830                     $"'                       REQUIRED               $215,000




                                                                  v                        w
                                                     TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                      $3,694,086




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $3,365,342




                                             AMERICORPS                  AMERICORPS
                                              FORMULA:                   COMPETITIVE:
                                               $989,261                   $2,296,081

                                               MATCH                        MATCH                     MATCH
                                               $442,245                    $1,579,630                 $259,618

                                              TOTAL # OF                  TOTAL # OF                 TOTAL # OF
                                                SUBS-                       SUBS                       SUBS-
                                                                              5                          5

                                              TOTAL # OF                  TOTAL # OF                 TOTAL # OF
                                                SITES.                      SITES.                     SITES.
                                                                             116                         **.




    Total Carryovers for 1999 (Not included in the current year funding amounts above)'

     PDAT                           13,571


           Per Comm~ssion,there was no match required

    ...
    "
          Disabilityfunds included in grant award
          Information not prowded by the Commission

    NOTE Per the Executive Director the LBS award is still in Negotiations wthin the Corporatlon
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following items to ensure compliance
with Part 6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-
133, Audits of States, Local Governments, and Non-Projt Organizations: overall control
environment; activities allowed or unallowed and allowable costs; cash management;
eligibility; equipment and real property management; matching; period of availability of
Corporation funds; procurement and suspension, debarment; program income; and reporting
by the Commission to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
        APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


        Administering the Grant Funds

        Our objectives were to:

               conduct a preliminary survey of the systems and controls utilized by the Commission
               to oversee and monitor the performance and progress of funded subgrantees;

               make a preliminary assessment as to whether the Commission's organizational
               structure and staffing level and skill mix is conducive to effective grant
               administration and whether the commission has a properly constituted membership;

               make a preliminary assessment as to whether the Commission provided adequate
               guidance to subgrantees related to maintenance of financial systems, records,
               supporting documentation, and reporting of subgrantee activity;

               conduct a preliminary survey of financial systems and documentation maintained by
               the Commission to support oversight of subgrantees and required reporting to the
               Corporation (including Financial Status reports, enrollment and exit forms); and

               make a preliminary assessment as to what procedures the Commission has in place to
               verify the accuracy and timeliness of reports submitted by the subgrantees.

        In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
        subgrantees, as well as Financial Status Reports submitted by the Commission to the
        Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
        also determined whether the Commission has implemented the Web Based Reporting
        System.

        Evaluating and Monitoring Grants

        Our objectives were to:

               conduct a preliminary survey of the systems and controls utilized by the Commission,
               in conjunction with the Corporation, to implement a comprehensive, non-duplicative
               evaluation and monitoring process for their subgrantees;

               make a preliminary assessment as to whether the Commission has a subgrantee site
               visit program in place and assess the effectiveness of its design in achieving
               monitoring objectives;

               conduct a preliminary survey of the Commission's procedures used to assess
               subgrantee compliance with Corporation regulations (e.g., those governing eligibility
               of Members, service hour reporting, prohibited activities, payment of living
1 177
APPENDIX 6 - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures perfonned by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for hnds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and technical assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C                      - KENTUCKY COMMISSION RESPONSE




                                JEWISH COMMUNITY FEDERATION OF LOUISVILLE, INC.


        OFFICERS                 June 5,2000
          PRESIDENT
    Gerald D Temps, M D
  VICE PRESIDENTS
           lanr Coldnm
        Joseph Hemman            Dean A. Reuter
      Mark A Isaars. AM
         TREASURER               Deputy lnspector General
      Lamrnre Ptttarman           for Audit and Policy
          SECRETARY
               k n , S"W1        Officer of Inspector General
ASSISTANT SECPETARY              1201 New York Avenue, N.W.
            MPCSpalbrrg
              BOARD OF
                                 Washington, DC 20525
           DIRECTORS
      Karen Abrams, M D
       Ronald W Abrams*
                                 Dear Mr. Reuter:
            JarryAbrammn
                   Todd Blue
  Shdie Branson, D h4 D          I am in receipt of the pre-audit survey of the Kentucky Community Service Commission
            L w ~D   s Colr'
              Stwm R Ftne
                                 and want this letter to serve as a first response to the survey as indicated in your letter of
      larry Florman, h4 D        May 9.
             Alan Frwdman
          Sheldon G h a n
           Edmn Goldbprg         As you know, our Commission has undergone significant changes during the past
           Toni Coldman'
 &chard L Goldwin, M D           several months. We have not had an Executive Director since mid-October, the
             D m ? Gordon
          Phhp Groirman          Commissioners have assumed day-to-day responsibilities in some areas, given our
       Stuan Handmak~r'          depleted staff. However, we have recently become associated with the Cabinet for
          Carol He>dcman
     Alfred S lowph, Ill'        Families and Children within the state of Kentucky and the transition process is moving
                 Cheryl Karp
     Lowell D Katz, M D          along at a rapid rate.
 Howard D Kletn, D M D
           Herman Landau
             Dawd ktbson         We plan to respond to each of the items outlined in the audit; we plan to have this done
               h o l d Lmn
       Frank K L~psdiue'         within the next few weeks so we ask for your indulgence while our response is being
               lam~sPotash       drafted. However, we would also like the opportunity to meet with either you andlor the
                 Peter Resn~k
  Fanny Rose Rosenbaum           auditors to work through each of the items listed in the preliminary audit. We believe this
             Marcia L Rolh
           Roben H Sachs         is a customary practice and want to follow-up on a number of the issues discussed at our
       Farrdl E Sabman'          exit interview.
             Dmse Schiller
     Michael C Shatkun'
        Allan B Solomon'
               Maura Temes       ?!ease fee! free !c call me at 502-451-8840, email at aenael@ialou.com or write to
             Alan Waldman        advise that you have received this letter and the process outlined above is acceptable.
     Edward B. Weinberg'
            Frank Weisberg       The Commission appreciates the comments made and looks forward to complying with
                 Karen Wws
             Heather Yaron       all issues.
                    RABBIS




                                &
         Chester Diamond
           Avrohom LiMn          Si    er ly,
             Shmuel Mann
              Slanley Miles
         Roben B Slosberg
                  AGENCY
          PRESIDENTS
      Henry M Altman, Ir
     Ralph G i m . D M D
             Manhall Kahn
                                 Alan&
                                 Exec tive
                                         Engel
                                           Director
   Harold F Wm, D M D
                  Edith Wing
                   Gad Pohn      AS Elpkd
                l a h e Rubm
        Edwin Segal, Ph D
              Elaine Srauble     cc:       KCCVS Executive Committee
             EXECUTIVE                     Howard Valosky
              DIRECTOR
               Alan S Engel                Lori Jo Hill

                                3630 Dutchmans Lane, Louisville, Kentucky 40205-3200, Phone 502-451-8840,   Fax 502-458-0702, email: jfed@iglou.com
APPENDIX D - CORPORA TION RESPONSE



                                                        CORPORATION

                                                        FOR N A T I O N A L
             MEMORANDUM                                     SERVICE

             TO:               Luise S. Jordan          -
             THRU:

             FROM:             Deborah R. Jospi
                               Bruce H. Cline

             DATE:             May 15,2000

             SUBJECT:          Response to the Draft Audit Report 00-1 1 Pre-Audit Survey of the
                               Kentucky Commission on Community Volunteerism and Service


             We have reviewed the draft report on your pre-audit survey of the Kentucky
             Commission. Given the nature of the report, this response serves as our proposed
             management decision. We note that ~.  your preliminary assessment recommend a full-
             scope financial audit at the Kentucky Commission f i r 1995 through the current program
             year. The draft audit report includes a recommendation to the Corporation. We are
             providing the following response to that recommendation. The Inspector General
             recommended:

                      "Additionally, we (the Inspector General) recommend that the Corporation follow
                      up with the Kentucky Commission to determine that appropriate corrective
                      actions are put into place to address the conditions reported herein, and that the
                      Corporation consider these conditions in its oversight and monitoring of the
                      Kentucky Commission."

             Some of the conditions cited in the "results in brief' section of the report include
             concerns related to conducting an open and competitive selection process for national
             service subgrantees. It was also noted that the Commission does not have adequate
             controls in place for the fiscal administration of grants or similarly, there are inadequate
             controls to evaluate and monitor subgrantees.

             Given our limited program administration resources, we developed a plan to assess State
             Commission administration functions. Over a three-year period, we will be reviewing
             each of the state commissions. As part of our follow-up with Kentucky, we will
             determine whether the Commission has put appropriate corrective actions in place for
             conditions noted in the pre-audit survey that your office has issued.

             In addition to this scheduled review, we will also request that the Kentucky Commission
             provide semi-annual reports on their actions to correct conditions cited in the OIG pre-
             audit survey.




     NATIONAL SERVICE: G E l l I N G THINGS DONE                         1201 New York Avenue, N.W. Washington, D.C. 20525
     Ammi-         Urno d , w w m n r   N o f i o m ~ h i cwps
                                                           a ~           telephone: 202-606-5000 webrite: m.nation.service.org
